              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report


Yucca Mountain Project
Document Suspension




OAS-M-08-07                                 April 2008
                             Department of Energy
                                 Washington, DC 20585

                                  A p r i l 2 8 , 2008



MEMORANDUM FOR THE DIRECTOR, OFFICE OF CIVILIAN RADIOACTIVE
                 WASTE MANAGEMENT
                           2&,        /j . 77aF/-
FROM:                     'JJilliam S . Maharay
                          Deputy Inspector General

SUBJECT:                  DVFORMATION: Audit Report on "Yucca Mountain Project
                          Document Suspension"

BACKGROUND

The Department o r Energy's Office of Civilian Radioaztivc Waste Management
(OCRWM) is preparing to obtain a license from the Nuclear Regulatory Commission to
construct a permanent repository at Yucca Mountain for the disposal of high-level
radioactive waste and spent nuclear fuel. In December 2005, OCRWM identified design
process inadequacies and suspended the appro\lal of new7documents 'important to waste
isolation' or safety analysis that were subject to quality assurance procedures. Waste
isolation refers to limiting radioactive exposure to the public after the waste is placed in
the repository; while safety refers to limiting exposure prior to emplacement.

OCRWM lifted the suspension in October 2006 after its contractor, Bechtel SAIC
Company, LLC (BSC), revised its quality assurance procedures. Subsequentlq, the
Office of Inspector General and OCRWM received allegations concerning the
effectiveness of the suspension. The objective of our inquiry was to determine whether
quality assurance procedures were followed - specifically, whether quality affecting
documents that were important to waste isolation and safety were issued during the
suspension or reclassified so that they would not be subject to the established quality
assurance process.



Prior to our audit. OCRWM performed an internal review and detemlined that BSC had
issued five docun~entsthat were questionable under the terms of the suspension. Our
independent review confirmed that these five documents were issued during the
suspension period. However, we determined that issuance of the documents had no
inaterial effect on quality since they were revised after the suspension, reviewed under
the new quality assurance requirements, or were not affected by any requirement
changes. We did not identify any documents that were reclassified during the
suspension. A discussion of these and related matters follows.




                                 @!  19ntecj W I ~ I I my ink ur, recvcled p p e ,
                                              2

Analyses of Documents Issued During Suspension

As stated previously, both the Office of Inspector General and OCRWM received a
complaint, submitted through the Nuclear Regulatory Commission, alleging that
documents had been inappropriately processed during the suspension. OCRWM
conducted an internal review and identified five documents, which had been issued
during the suspension and were defined as important to waste isolation or safety. These
documents included three change notices to a previously issued waste isolation or safety
document and two studies related to waste isolation or safety.

Based upon its review, OCRWM issued a condition report to the Corrective Action
Program requiring the contractor to address the issuance of the five documents in
question. BSC officials responded by indicating that the documents had either been
revised since the suspension, reviewed under the new quality assurance requirements, or
the documents were not affected by any requirement changes. The OCRWM Concerns
Program reviewed BSC's actions and accepted them as sufficient to close the condition
report.

The Office of Inspector General conducted an independent examination of the facts
surrounding the allegation. The examination included a review of all documents issued
during the suspension period by the contractor. Our analysis identified the same five
documents that were quality affecting and were either important to waste isolation or
safety. A further examination of the matter confirmed that the issuance of the documents
had not impacted quality since the documents had been either revised and reviewed under
the new quality assurance requirements after the suspension, or were not affected by any
of the quality assurance requirements.

During the course of the Office of Inspector General examination of the matter, we did
not find any evidence to support the allegation that BSC inappropriately reclassified
documents so that they would not be subject to the suspension. However, we identified
two procedural issues relating to quality assurance that had not been fully resolved.
These issues are discussed below.

Justification for Use of Unqualified Data Supporting Quality Documents

Our examination identified one case where data that was not subject to quality assurance
procedures was used as input to support waste isolation documents without sufficient
justification. According to OCRWM's procedures, data used as direct input for safety
and waste isolation issues must meet applicable quality assurance requirements.
Unqualified data can be used only if its status as unqualified data is clearly identified and
its use is justified.

In the specific case, an unqualified study was used as input to four waste isolation
documents. However, there was insufficient justification for the use of the study, which
was not always identified as containing unqualified data. We discussed the issue with
OCRWM officials, and they agreed that additional justification was needed to support the
use of the unqualified study in waste isolation reports. OCRWM issued a condition
                                               3

report and directed its contractor to review the use of unqualified data in waste isolation
and safety documents, including studies, drawings, specifications, and calculations.
In response, BSC analyzed nuclear facility calculations and other engineering documents
and determined that the calculations and documents using unqualified data contained
sufficient justification. However, we determined that BSC's review did not completely
address the concerns raised. In conducting its analysis, BSC examined 2 of the 4
documents that we identified and determined that there was sufficient justification for
using the unqualified data. The contractor did not fully analyze the remaining 2 waste
isolation documents. BSC told us that it would analyze the remaining documents;
however, the contractor subsequently closed the condition report without performing the
analysis. In responding to a draft of this report, OCRWM officials informed us that BSC
had reviewed the remaining 2 documents and that the condition report would be updated
to include the results of the supplemental review.

Documentation and Resolution of Review Comments

During our review, we also noted other quality assurance procedural issues that OCRWM
had previously identified, but had not been fully resolved. OCRWM conducted an
internal assessment in January 2007 and found that BSC was not (1) consistently
documenting review comments and their resolution, and (2) tracking document changes
and their impact on other documents. OCRWM prepared a condition report for each
concern and directed BSC to correct the noted conditions. The issues were classified as
minor conditions adverse to quality or opportunities for improvement. BSC addressed
the issues raised by modifying its procedures and closed the associated condition reports.

Our examination indicated that although BSC had taken certain action, the previously
identified issues had not been fully resolved. Reviewers providing formal comments
continued to write directly on some engineering documents or send their comments by
e-mail messages, instead of using required comment sheets. Also, ten of the sixteen
engineering documents that we examined since the procedures changed did not clearly
indicate how formal comments had been addressed. OCRWM officials told us that
reviewers are required to sign the Engineering Document Review record indicating that
their comments were resolved. However, we found that these documents were not
always used to show how the comments were resolved.

In addition, when documents changed, BSC procedures emphasized using the Document
Input Reference System (DIRS) to conduct impact analyses to review the relationship
among documents or to review Infoworks, a separate engineering system, for reference
relationships, depending on the type of design input, i.e., calculations, scientific test data,
etc. However, we found that engineering groups did not always follow the revised
procedure. Specifically, some engineers told us that they relied on weekly staff meetings
to determine whether or not document revisions impacted other documents. As a result,
neither OCRWM nor BSC could be assured that all relevant documents and other
information had been identified that could be affected by a change and the impact of the
change had been assessed.

OCRMW officials told us that the design of controls over inputs to quality-affecting
design and preclosure safety analyses is sound and meets regulatory requirements. Our
                                            4

concern, however, in bringing the above examples to management's attention relates to
the consistency to which the controls are implemented.

OCRWM Follow-up

Although OCRWM required BSC to correct the issues associated with the use of
unqualified data and resolution of reviewer comments, agency officials did not examine
the effectiveness of BSC's corrective actions. OCRWM personnel assigned levels of
significance or potential consequence to each condition report, ranging from A to D. For
the previous cited issues, OCRWM assigned Level Cs and Ds to the condition reports for
the above areas. OCRWM officials told us that follow-up was optional for these lower
level condition reports.

Recommendations:

We recognize that resources need to be applied based on an assessment of risk.
Nonetheless, the fact that the contractor's actions did not effectively address the
aforementioned issues raises concerns as to the adequacy of actions taken in response to
the agency's condition reports. To address this matter, we recommend that OCRWM
conduct:

   1. Follow-up reviews of the condition reports that we identified in this report; and,

   2. On a selective basis, follow-up reviews to ensure that other actions contained in
      condition reports, assigned a Level C or D, are effectively implemented.

Management Comments

Management concurred with our recommendations. OCRWM has already started follow-
up reviews on some condition reports and additional reviews will be conducted to ensure
effective implementation of corrective actions for other condition reports. Management
comments are included as Attachment 2.

Auditor Comments

Management comments were responsive to our recommendations.


Attachments

cc: Acting Deputy Secretary
    Under Secretary of Energy
    Chief of Staff
    Team Leader, Audit Liaison Team, CF-1.2
                                                                      ATTACHMENT 1


SCOPE AND METHODOLOGY

We reviewed engineering and preclosure safety analysis documents (PCSA) dated
between December 19, 2005, and October 15, 2006, to determine if any documents
subject to the quality assurance requirements were issued. We also reviewed whether
quality affecting procedures and processes were followed in the development of
engineering and PCSA documents. Specifically, we analyzed whether BSC prepared,
reviewed, approved, changed and tracked engineering and PCSA documents according to
established policies and procedures. In addition, we analyzed BSC's justification and use
of unqualified data in quality affecting documents. The audit was conducted from
October 2007 through February 2008 at the Office of Repository Development and
Bechtel SAIC offices in Las Vegas, Nevada.

We conducted our performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. We
included tests of compliance with those laws and regulations which could, if not
observed, have a direct and material effect on the internal control structure.

An exit conference was held on April 24, 2008, at the OCRWM offices in Las Vegas,
Nevada.
                      ATTACHMENT 2

MANAGEMENT COMMENTS
                                                             IG Report No. OAS-M-08-07


                       CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                  http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
